No. 19-277
lNTHE

$,upreme Qtourt of tbe Wniteb $)tates
HSBC HOLDINGS PLC, et al. ,

Petitioners ,
V.

IRVI 1G H. PICARD AND
SECURITIES INVESTOR PROTECTION CORPORATION,
Respondents.
On Petition For A Writ Of Certiorari To The United
States Court Of Appeals For The Second Circuit

CERTIFICATE OF SERVICE
I, Joshua S. Bolian, a member of the Bar of this
Court, hereby certify that on this 30th day of
October, 2019, I caused to be served by overnight
carrier 3 copies of the Brief in Opposition for
Respondent Irving H. Picard on each of the following
counsel:
Thomas J. Moloney
Cleary Gottlieb Steen & Hamilton LLP
One Liberty Plaza
New York, NY 10006
tmoloney@cgsh.com
(212) 225-2460
Party name: HSBC Holdings plc, et al.

2

Kenneth J. Caputo
Securities Investor Protection Corporation
1667 K Street, N.W., Suite 1000
Washington, DC 20006
kcaputo@sipc.org
(202) 371-8300
Party name: Securities Investor Protection
Corporation
I further certify that all parties required to be
served have been served.

Joshua S. Bolian
'

October 30, 2019

